<html>
<title> - OPEN HEARING: NOMINATIONS OF CHRISTOPHER C. MILLER TO BE DIRECTOR OF THE NATIONAL COUNTERTERRORISM CENTER AND PATRICK HOVAKIMIAN TO BE GENERAL COUNSEL OF THE OFFICE OF THE DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 116-229]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-229

                 OPEN HEARING: NOMINATIONS OF CHRISTOPHER 
                  C. MILLER TO BE DIRECTOR OF THE NATIONAL 
                  COUNTERTERRORISM CENTER AND PATRICK 
                  HOVAKIMIAN TO BE GENERAL COUNSEL OF 
                  THE OFFICE OF THE DIRECTOR OF NATIONAL 
                  INTELLIGENCE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JULY 22, 2020

                               __________

      Printed for the use of the Select Committee on Intelligence
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-866 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
       
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 MARCO RUBIO, Florida, Acting Chairman
                MARK R. WARNER, Virginia, Vice Chairman

RICHARD BURR, North Carolina         DIANNE FEINSTEIN, California
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas                   MICHAEL F. BENNET, Colorado
BEN SASSE, Nebraska
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                   JAMES INHOFE, Oklahoma, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                             JULY 22, 2020

                           OPENING STATEMENTS

Rubio, Hon. Marco, Acting Chairman, a U.S. Senator from Florida..     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     2
Grassley, Hon. Chuck, a U.S. Senator from Iowa...................     4

                               WITNESSES

Miller, Christopher C., Nominee to be Director, National 
  Counterterrorism Center........................................     6
    Prepared statement...........................................     8
Hovakimian, Patrick, Nominee to be General Counsel, Office of the 
  Director of National Intelligence..............................    13
    Prepared statement...........................................    16

                         SUPPLEMENTAL MATERIAL

Nomination material for Christopher C. Miller
    Questionnaire for Completion by Presidential Nominees........    40
    Additional Prehearing Questions..............................    52
    Posthearing Questions for the Record.........................    83
Nomination material for Patrick Hovakimian
    Questionnaire for Completion by Presidential Nominees........    96
    Additional Prehearing Questions..............................   113
    Posthearing Questions for the Record.........................   147

 
 OPEN HEARING: NOMINATIONS OF CHRISTOPHER C. MILLER TO BE DIRECTOR OF 
   THE NATIONAL COUNTERTERRORISM CENTER AND PATRICK HOVAKIMIAN TO BE 
 GENERAL COUNSEL OF THE OFFICE OF THE DIRECTOR OF NATIONAL INTELLIGENCE

                              ----------                              


                        WEDNESDAY, JULY 22, 2020

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m., in 
Room SR-325, Russell Senate Office Building, Hon. Marco Rubio 
(Acting Chairman of the Committee) presiding.
    Present: Senators Rubio, Burr, Risch, Collins, Blunt, 
Cornyn, Sasse, Warner, Feinstein, Wyden, Heinrich, King, 
Harris, and Bennet.

OPENING STATEMENT OF HON. MARCO RUBIO, ACTING CHAIRMAN, A U.S. 
                      SENATOR FROM FLORIDA

    Chairman Rubio. I'd like to call the hearing to order.
    I would like to welcome Christopher C. Miller, President 
Trump's nominee to be the next Director of the National 
Counterterrorism Center, and Patrick Hovakimian, President 
Trump's nominee to be the next General Counsel for the Office 
of the Director of National Intelligence. Congratulations to 
both of you for your nominations, and thank you for your 
willingness to serve.
    Our goal for this hearing is to enable this Committee to 
have a thoughtful and deliberate consideration of your 
qualifications for the positions that you've respectively been 
nominated to fill.
    The witnesses have provided written responses to questions 
from the Committee, from its Members, which you all will have. 
And this morning, Members will be able to ask any additional 
questions they have and hear directly from the nominees.
    As you'll see, Mr. Miller graduated from George Washington 
University. He was commissioned as an infantry officer through 
ROTC in 1987. He has a Master's in Arts degree in national 
security studies from the Naval War College, and he's also a 
graduate of the Naval College of Command and Staff and the Army 
War College.
    He began his military career as an enlisted infantryman in 
the Army Reserve in 1983, and also served in the District of 
Columbia National Guard. In 1993, Christopher transferred to 
Special Forces and served with the 5th Special Forces Group. He 
participated in combat operations in Afghanistan and Iraq.
    Upon retiring from the Army in 2014, he worked as a defense 
contractor before serving as the Special Assistant to the 
President, and Senior Director of Counterterrorism and 
Transnational Threats at the National Security Council. He 
currently serves as the Deputy Assistant Secretary of Defense 
for Special Operations and for Combating Terrorism.
    Mr. Hovakimian graduated from Occidental College and 
received his law degree from Stanford University in 2010. He 
then served as a law clerk on the United States Court of 
Appeals for the 11th Circuit. Thereafter, he entered private 
practice for several years before joining the U.S. Department 
of Justice as an Assistant U.S. Attorney for the Southern 
District of California.
    During this time, Patrick served multiple roles here in 
Washington, to include during his time with DOJ, he served in 
multiple roles here in Washington, to include as the 
Department's Director of Counter Transnational Organized Crime. 
Mr. Hovakimian currently serves as the Associate Deputy 
Attorney General and Chief of Staff to Deputy Attorney General 
Jeffrey Rosen.
    Gentlemen, you've been asked to lead NCTC and the ODNI's 
Office of General Counsel, respectively, at a time when we are 
engaged in a debate--in a robust debate about the Intelligence 
Community and our collection tools and authorities. At the same 
time, however, the Nation continues to confront a growing array 
of threats from state and nonstate actors. Navigating this 
tension will require judgment, wisdom, integrity, and I expect 
that you will both provide sound counsel and advice to the 
Director of National Intelligence Ratcliffe as he takes on 
these complex and at times divisive challenges.
    The satisfaction of this Committee's oversight mandate will 
at times require transparency and responsiveness from your 
respective offices, should you be confirmed. You can expect us 
to ask difficult and probing questions of you and of your 
staff. And in turn, we will expect honest, complete, and timely 
answers.
    That said, we also want you to feel free to come to the 
Committee with situations that necessitate our working in 
partnership with you. I look forward to supporting your 
nominations and ensuring their consideration without delay. I 
thank you both for being here, for your years of service to our 
country, and for your willingness to continue in that service. 
And I look forward to your testimony.
    I recognize the Vice Chairman.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Well, thank you, Mr. Chairman. And I 
want to also join in welcoming Mr. Miller and Mr. Hovakimian. I 
had the opportunity to talk with both of them prior to this 
hearing.
    Congratulations on your respective nominations to serve as 
Director of the National Counterterrorism Center and General 
Counsel for the Office of the DNI. Both of these positions are 
important positions in the Intelligence Community during a time 
of unprecedented national challenge and peril.
    The National Counterterrorism Center was created to prevent 
these kind of efforts of the bad guys listening into our 
meetings. It was created in the wake of 9/11 to connect the 
dots and ensure a terrorist attack never again occurs on our 
soil. The ODNI's General Counsel is critical to ensuring that 
the Intelligence Community abide by the laws of this Country, 
including protecting Americans' civil liberties and privacy 
interests.
    The job of America's Intelligence Community is to uncover 
and anticipate threats, and to provide warning to the Nation. 
The Intelligence Community is first and foremost America's eyes 
and ears against foreign threats. And you, just as all of the 
professional men and women of the IC, are mandated to be 
nonpolitical and to speak truth to power. Making those 
difficult calls based not on what those in power wish to hear, 
but on the facts.
    Unfortunately, under this President, the men and women of 
the Intelligence Community have increasingly come under attack, 
not only from abroad, but without justification from within the 
leadership of our very own government. Those who've had the 
temerity to do what all Americans expect of them, simply to 
tell the truth, have found themselves similarly dismissed, 
disparaged on Twitter, and retaliated against.
    Because this President so often finds the truth unwelcome, 
he has fired DNI Coats, Acting DNI Admiral Maguire, his Acting 
Deputy DNI Mr. Hallman, Deputy DNI Sue Gordon, and IC Inspector 
General Michael Atkinson. Acting NCTC Director Russ Travers, a 
40-year intelligence veteran, was dismissed by Mr. Trump's 
Acting DNI. Intelligence professionals, who volunteer to do 
difficult, dangerous jobs, including those who risk their lives 
every day around the world, must know that our country's 
leaders have their backs. Instead, they have been subject to 
disrespect.
    For a significant period of this year, there was not a 
single Senate-confirmed senior official at the office of the 
DNI. This alarms me and it should alarm the American public.
    The leadership roles you've agreed to undertake are 
challenging under the best of circumstances.
    Mr. Miller, our terrorist adversaries have not simply 
disappeared. Those of us on this Committee know that plots 
continue every day. American men and women deployed in harm's 
way in Syria, Iraq, Afghanistan, and elsewhere are terrorist 
targets. And some never made it back to their families.
    I look forward to hearing from you today with your thoughts 
as to how to confront the evolving and increasingly 
sophisticated threat from ISIS and other rogue organizations 
you'll take on in this role, and how you will define success, 
should you be confirmed. In particular, I'd like to hear what 
you think about the role of the NCTC in confronting these 
threats and how you plan to make sure the Center is 
sufficiently resourced to carry out its job.
    Mr. Hovakimian, the General Counsel advises the DNI on the 
letter and spirit of the law, including the legal mandate to 
keep the intelligence committees fully and currently informed, 
and to ensure Americans' civil liberties are protected. But as 
we saw with the Ukraine whistleblower, those who complied with 
their obligations to inform Congress have faced consequences.
    I expect to engage with you today on your perspective of 
what whistleblowers and in particular your perspective on the 
involvement of the Office of Legal Counsel at the Department of 
Justice. Unfortunately, because of how this Administration has 
approached the IC, your already difficult responsibilities will 
be even more challenging.
    In addition to asking how you will undertake these 
responsibilities today, I will also wish to hear how you will 
stand up to political pressure, how you will ensure that 
analysis is apolitical and performed without fear or favor. How 
you'll reassure your workforce that they will not face 
consequences for simply doing their jobs, and how you'll make 
sure that this Committee is fully and currently informed.
    Former DNI Dan Coats, a former Member of this Committee, 
set a high bar for telling truth to power, even in public when 
necessary, for which he was eventually fired. I will want to 
understand how you plan to live up to his example.
    Thank you again, both, for agreeing to take up these 
challenging positions during a difficult time. I look forward 
to today's hearing.
    Thank you, Mr. Chairman.
    Chairman Rubio. I understand the President Pro Tempore of 
the Senate, Senator Grassley, is here to introduce and speak on 
behalf of Mr. Miller.
    Senator Grassley, please proceed.

 OPENING STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM 
                              IOWA

    Senator Grassley. Thank you very much, Mr. Chairman and Mr. 
Vice Chairman, for the opportunity to introduce to the 
Committee a native of my home state of Iowa, Mr. Christopher 
Miller.
    I congratulate both of the nominees for their appointment. 
It is not every day that an Iowan with such a distinguished 
service record comes before the Senate for consideration. So 
it's a special privilege for me to give this introduction.
    Chris' parents and much of his family still live in Iowa 
City and/or Eastern Iowa. I'm sure his family is very proud 
that he will be testifying before this Committee today and be 
recognized for his accomplishments and service to our country.
    Chris was raised in Iowa City. After graduating from City 
High School, he attended George Washington University where he 
majored in history and enrolled in the ROTC program. He 
graduated from George Washington in 1987, and then immediately 
accepted a commission in the U.S. Army as an infantry officer.
    In the Army, Chris had an impressive and distinguished 
career. He served in Afghanistan in 2001 and Iraq in 2003. And 
in the following years, like a lot of other military people, he 
served on numerous additional deployments to both of those 
countries. On behalf of the people of Iowa, we thank you and 
other people for your service to the country, particularly in 
those difficult times.
    Following his time in the Army, Chris went on to become a 
Deputy Assistant Secretary of Defense for Special Operations in 
Combating Terrorism, where he is currently performing the 
duties of the Assistant Secretary of Defense for Special 
Operations. Whether as a member of the Armed Forces or in 
public service, Chris has given the best of himself for the 
American people and the defense of our country. Of course, that 
should be no surprise. After all, he's got Iowa roots.
    I'm certain that this Committee will give him a proper 
review of his record and his service and how that fits into his 
new position. I believe he is fully qualified, being nominated 
now to be director of the National Counterterrorism Center, 
Office of the Director of National Intelligence.
    So now, it is again my pleasure to introduce to this 
Committee Mr. Christopher Miller. Congratulations.
    Thank you, Mr. Chairman.
    Chairman Rubio. Thank you, Senator Grassley.
    So before we begin, Mr. Miller and Mr. Hovakimian, would 
you please each stand and raise your right hand?
    Do you solemnly swear to give this Committee the truth, the 
full truth, and nothing but the truth, so help you God?
    Mr. Hovakimian. I do.
    Mr. Miller. I do.
    Chairman Rubio. Thank you. Please be seated.
    Gentlemen, before we move to your statements, I want to ask 
you to answer the five standard questions that we ask of every 
nominee who appears before us. They generally require a simple 
yes or no answer. The only reason why we need to hear it is so 
it can be transcribed. So from each of you, make sure your 
microphones are on.
    The first question is, do you agree to appear before the 
Committee here or in any other venues when invited?
    Mr. Hovakimian. Yes.
    Mr. Miller. I do, yes.
    Chairman Rubio. If confirmed, do you agree to send 
officials from your office to appear before the Committee and 
designated staff when invited?
    Mr. Hovakimian. Yes.
    Mr. Miller. Yes.
    Chairman Rubio. Do you agree to provide documents or any 
other materials requested by the Committee, in order for it to 
carry out its oversight and legislative responsibilities?
    Mr. Hovakimian. Yes.
    Mr. Miller. Yes.
    Chairman Rubio. Will you ensure that your office and your 
staff provide such material to the Committee when requested?
    Mr. Hovakimian. Yes.
    Mr. Miller. Yes.
    Chairman Rubio. And finally, do you agree to inform and 
fully brief to the fullest extent possible all Members of this 
Committee of intelligence activities and covert actions, rather 
than only the Chairman and the Vice Chairman?
    Mr. Hovakimian. Yes.
    Mr. Miller. Yes.
    Chairman Rubio. Thank you very much. We will now proceed to 
your opening statements, after which I'll recognize Members. I 
believe we'll go by order of seniority today.
    Christopher, I understand you're going to go first. So the 
floor is yours.

  STATEMENT OF CHRISTOPER C. MILLER, NOMINEE TO BE DIRECTOR, 
                NATIONAL COUNTERTERRORISM CENTER

    Mr. Miller. Thank you, Senator. I wanted to highlight what 
a thrill it was for me to hear Senator Grassley make those 
opening comments. My folks are in Iowa City watching. I hope 
they've got C-SPAN 2 up. I was a little bit worried, but I'm 
sure my sister helped them out.
    My Uncle Floyd Booth and Aunt Arlene of Alburnett, Iowa, I 
know are smiling down. They were huge supporters of Senator 
Grassley. When I was 14 years old, I went to an event at their 
farm in Alburnett. I will admit that I did not hear his 
remarks. I was out along the fence line plinking with my BB 
gun, but it was awfully special.
    Senator Warner, with highest regards, I am now a citizen of 
the Commonwealth. But when people ask me where I'm from, I 
proudly say that I'm from Iowa. And I really--words can't 
describe how honored I am, and all the work that Senator 
Grassley has done for the state of Iowa and his leadership.
    Acting Chairman Rubio, Vice Chairman Warner, and 
distinguished Members of the Committee, thank you for taking 
the time today to consider my nomination to be the director of 
the National Counterterrorism Center. I appreciate the 
opportunity to appear before you. It is both humbling and 
surreal to sit before you today as the President's nominee for 
this position. I am grateful to have the support and confidence 
of President Trump and Director of National Intelligence 
Ratcliffe.
    Along with the overwhelming privilege to lead and command 
America's sons and daughters in combat as an Army Special 
Forces officer, being considered for this position is the 
distinct honor of my professional life. When Al-Qaeda declared 
war on the United States in 1997, and attacked us in force on 
September 11, 2001, I like many of my generation, answered the 
call to fight and defeat them. It was not a war we sought, but 
in the defense of this Nation, we selflessly sacrificed our 
youth and our innocence.
    Many dear friends and comrades also sacrificed their 
health, their marriages, and in some cases their lives. We have 
no regrets. The war has been long, but our efforts have been 
remarkably successful. The commitment of tens of thousands of 
professionals has taken the fight to the enemy, protected the 
United States, and developed a global network of partnerships 
that have prevented another cataclysmic attack.
    When we set out on this journey as a country, we envisioned 
our campaign against violent extremist organizations as a 
generational war, not a multigenerational war. It would be, in 
my view, the height of irresponsibility to leave this conflict 
for our children to fight.
    It is my life's goal, whether confirmed for this position 
or in another capacity, to defeat Al-Qaeda and its affiliates, 
transition this war to a sustainable effort laser focused on 
monitoring terrorist threats to the United States, attacking 
those that generate the will and capability to do us harm, 
developing and nurturing the next generation of 
counterterrorism professionals and technologies, and expanding 
relationships with like-minded partners around the world who 
are committed to the elimination of this scourge to peaceful 
coexistence.
    I still see myself as a kid from Iowa who wanted nothing 
more than to serve his country and make his parents proud. My 
father believed strongly in the nobility of public service, and 
I try every day to follow in his footsteps. In addition to my 
mother's wisdom and example of citizenship, that's what my 
sister and I aspire to emulate in all facets of our lives.
    Most importantly, I want to recognize my wife Kate and our 
three children that are here with me today. Kate stood 
steadfastly with me through this 32-year odyssey, and raised 
our three children into magnificent adulthood. Their character, 
optimism for the future, and goodness are my motivation. They 
give me hope for the continued greatness of this wonderful 
experiment that is the United States of America.
    If confirmed, I will lead the patriotic men and women of 
the National Counterterrorism Center with honor and integrity; 
advocate for the no-fail requirements of our counterterrorism 
enterprise; and provide my frank, honest, and unvarnished 
opinions and advice to the President, the DNI, this Committee, 
and other policymakers and leaders in order to guarantee that 
we never again experience the indescribable loss of September 
11, 2001.
    Mr. Acting Chairman, Mr. Vice Chairman, and Members of this 
Committee, thank you for your unparalleled leadership in 
protecting the United States. I look forward to responding to 
your questions.
    [The prepared statement of Mr. Miller follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Rubio. Thank you.
    Mr. Hovakimian.

STATEMENT OF PATRICK HOVAKIMIAN, NOMINEE TO BE GENERAL COUNSEL 
     OF THE OFFICE OF THE DIRECTOR OF NATIONAL INTELLIGENCE

    Mr. Hovakimian. Acting Chairman Rubio, Vice Chairman Warner 
and distinguished Members of the Committee, thank you for 
taking the time this morning to consider my nomination to serve 
as General Counsel for the Office of the Director of National 
Intelligence. I am honored to appear before you today.
    I also extend my thanks to the President for the 
opportunity to serve, to Director Ratcliffe for his confidence 
in me, and to my current bosses, Attorney General Bill Barr and 
Deputy Attorney General Jeff Rosen, for their support 
throughout this nomination process.
    Acting Chairman Rubio and Vice Chairman Warner, I am a 
first-generation American and a proud civil servant. My 
background and my family experiences shape who I am today, and 
they compel me to put my hand up when called upon to serve. 
This great country of ours has given me everything.
    My parents, Eric Ara Hovakimian and Lida Hovakimian, came 
to the San Francisco Bay area. They built a life. They raised 
two boys. And they instilled in me a deep appreciation of the 
freedom and rights our country provides, and an equally strong 
duty to serve. Without their love and support, I simply would 
not be here today. I thank my mom who is watching from home, my 
dad who I know is watching from above, my entire extended 
family, and the many close friends both from back home in 
California and those from later in life who have supported me 
and lived life beside me through the years.
    I've been fortunate in my career. After graduation from law 
school, I joined an international law firm where I worked 
alongside and learned from some of the finest lawyers anywhere 
in the world. After a few years at the firm and after clerking 
for Judge J.L. Edmondson on the Eleventh Circuit, I accepted 
what I thought could well be the last job I ever had.
    As an AUSA in San Diego, I worked alongside talented 
Federal agents and prosecutors, building cases from the ground 
up. I handled matters in diverse context and across the Federal 
criminal code. For the last couple of years, I served as a 
prosecutor. I worked primarily on a series of cases involving a 
former foreign defense contractor, his firm, and the U.S. Navy.
    Investigating and litigating these multinational defense 
procurement fraud and bribery cases was rewarding work, to say 
the least. It implicated our national security interests and 
those of our military. Working hand-in-hand with law 
enforcement agents and military personnel, it felt like we were 
standing up for the interests of the United States. It felt 
righteous, because it was.
    I look back on those days fondly, and I carry the 
experiences with me. They motivate me to continue to serve. 
Just as I have great respect for the dedicated professionals 
who comprise our Federal law enforcement agencies, I have 
tremendous respect for the members of our IC. They, too, do 
righteous work. They work every day on behalf of the United 
States, often in unheralded, if not completely anonymous, ways.
    I am here because I want to support them and their mission. 
I am here because I want to do what I can, particularly at this 
consequential time, to ensure that the women and men of the IC 
get the support they need to help keep our country safe and 
secure.
    I've seen the IC's work in action. Serving as DOJ's 
Director of Counter Transnational Crime, I was an avid consumer 
of IC products. I participated in FBI and CIA briefings on 
counternarcotics efforts, terrorism finance, country-specific 
and region-specific threats, and the various interconnections 
between nation-states and organized crime around the globe.
    As I worked to implement the substance of these briefings 
into action, I experienced firsthand the value the IC provides 
and the mission-critical nature of the work that they do. I've 
also seen firsthand the way the law interacts with the 
activities of the IC. As an Associate Deputy Attorney General, 
I regularly participate in counterintelligence and 
counterterror briefings, consult on operational matters, and 
review investigation and litigation strategy in national 
security cases.
    Senators, the General Counsel position that I've been 
nominated for is, at its core, of course, a legal job. In 
addition to the everyday tasks that any CLO would perform, I 
regard the overarching duties of the ODNI GC to be in principle 
threefold.
    First, the GC must speak truth to decision-makers. 
Everything else flows from that basic proposition. The only 
legal advice I will ever give is that which comports entirely 
with the Constitution of the United States and the laws of the 
United States. Even when it results in outcome or advice that 
others may not want to hear, I will only ever deliver what I 
consider to be lawful, objective, clear, and complete advice 
and counsel. My oath to the Constitution, if I'm confirmed, 
would require it, and my professional judgment and moral 
compass demand it.
    Second, the General Counsel must promote transparency, 
because the IC must keep Congress fully and currently informed 
of its intelligence activities. For me, cultivating a 
relationship with the Congressional intelligence committees is 
of paramount importance. Oversight provides the American 
people, through their elected representatives, a channel 
through which to review and evaluate. Specifically with regards 
to the intelligence activities of the IC, robust and thorough 
Congressional oversight is vitally important.
    The IC engages in activity critical to the national 
security of the country and with implications on many other 
important values that we rightly prize, like civil liberties 
and privacy. If confirmed, I'll work with the Director and 
other senior leaders to facilitate and maintain a cooperative 
process with this Committee.
    Third, the General Counsel is uniquely situated to promote 
collaboration across the IC offices, and should do so. The GC 
should take a leading role in promoting collaboration and 
ensure that the IC activities are conducted lawfully, and that 
the full panoply of statutory rights are protected for IC 
employees.
    I'll close by saying public service is a high privilege. I 
remember standing in court and saying for the first time, 
``Good morning, your Honor. Patrick Hovakimian on behalf of the 
United States.'' That feeling never got old. If I'm confirmed, 
I'll have a different but similarly significant opportunity to 
serve. I look forward, if confirmed, to working with the 
talented professionals of the IC.
    So Acting Chairman Rubio, Vice Chairman Warner, and Members 
of the Committee, thank you for your consideration of my 
nomination. I look forward to your questions.
    [The prepared statement of Mr. Hovakimian follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Rubio. Thank you both. I'm going to defer my 
opening questions till the back end of the hearing. And I'll 
recognize Senator Burr to begin.
    Senator Burr. Thank you, Mr. Chairman. Mr. Miller. Mr. 
Hovakimian?
    Mr. Hovakimian. Hovakimian, Sir, close.
    Senator Burr. Hovakimian. I've got a question for both of 
you, but I want to make a statement if I can at the beginning. 
Most on this Committee were intricately involved in creating 
not just NCTC, but the DNI. So they have their own vision of 
what the responsibility and the mission of both were.
    I've had an opportunity to sit down with Mr. Miller, and 
I've looked at Patrick's background in his resume. I'm not sure 
that we could have two more qualified people to fill the roles 
that they've been nominated for than these two individuals.
    And given that many on this Committee crafted these 
agencies in legislation, it is absolutely crucial that we have 
people that can fulfill the mission that we thought NCTC was 
there to do, and that we can have somebody interpret the 
correct law in an agency that is still in its embryo stage.
    So I encourage Members that if there were ever a time where 
I would really like to see us expedite these nominees, and 
hopefully get away from acting and have permanent, it would be 
before we leave for the next break.
    Mr. Miller, as CT mission manager for the IC, how do you 
plan to ensure that the Intelligence Community's 
counterterrorism mission is operated as efficiently as 
possible, given the limited resources and growing focus of 
hard-target countries?
    Mr. Miller. Thank you, Senator, for that question. I hope 
everyone can hear me.
    It's so important as rightfully, we've had enormous success 
against countering violent extremist organizations. And I 
really see that we're having this conversation about resourcing 
and prioritization for counterterrorism at this time. It's a 
real testament to the success that we've had. But the war's not 
over yet. Al-Qaeda and its affiliates still are committed to 
attacking us.
    First 30 days, get in there, look under the hood, see 
what's going on, determine what our resourcing strategy is and 
how we are, Senator, and then take action after that. I feel 
right now, we're in a pretty good place. I looked at the macro 
perspective of the budget in my last job. However, it's 
something we have to pay attention to and we can't overcorrect 
too soon, Senator.
    Senator Burr. Let me ask you a follow-up, if I can.
    How do you plan to reduce any analytic duplication that's 
going on currently?
    Mr. Miller. Senator, as you know, 17 intelligence 
organizations within our federated enterprise presents 
challenges. I have some of the same concerns when I see 
products that are written and, they're like, that kind of 
contradicts another one. That's kind of one of the challenges, 
but that's the beauty of our federated enterprise. We have 
competitive analysis. The question is, how much?
    And I know we currently, within the counterterrorism 
business, every day we have a meeting where we make sure we're 
not doing that. I'm going to take that very seriously, because 
duplication is all right to a point. But to use tax dollars 
correctly, we don't need too much, and that's always the 
challenge. And I'm going to take that one on loud and clear, 
Sir.
    Senator Burr. Thank you.
    Patrick, the Intelligence Community is often faced with the 
use of cutting-edge technology in novel situations. Without a 
lot of precedent for us to draw on, what experience do you have 
in crafting legal solutions for cutting-edge technology 
problems that have no legal precedent?
    Mr. Hovakimian. Senator, it's a great question and one 
that, in many ways, as you've rightfully pointed out, will 
define the IC and the process of providing considered legal 
judgments to the IC in the near future.
    Working at DOJ, I've had the opportunity to consult and 
work with FBI and the National Security Division on matters 
relating to artificial intelligence and other cutting-edge 
technologies like that. There are crosscutting legal issues 
that apply. Luckily, the IC is comprised of a number of 
talented GC offices. I would draw upon their experience and 
expertise. I would work with this Committee and the 
professional staff. I would engage, as appropriate, industry 
and other stakeholders. And I would do my best to render 
complete, thorough, and accurate legal advice, no matter how 
novel the context.
    Senator Burr. Thank you for that.
    Mr. Chairman, I yield.
    Chairman Rubio. Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman. And let me 
again say I've really enjoyed my opportunity to meet with both 
of you gentlemen before this hearing. And I would echo what 
Senator Burr said, that you both bring, I think, very strong 
qualifications. But you'd be taking on these jobs in an 
extraordinarily difficult time when I personally fear that the 
IC is under constant assault.
    I've got a couple of questions--not implying that you 
wouldn't--but I want to get these for the record.
    Will you commit to report to Congress any evidence of 
political pressure on analysts or politicization of any of the 
intelligence?
    And will you report to Congress any evidence of the use of 
so-called purge lists or loyalty tests within your respective 
areas?
    Mr. Miller. Yes, I will.
    Mr. Hovakimian. Yes, Senator. Politics has no place in the 
intelligence activities of the United States.
    Vice Chairman Warner. What will each of you do to reassure 
your workforce that you won't allow the NCTC or, for that 
matter, the ODNI writ large, not just within the General 
Counsel's office, that intelligence professionals will not face 
repercussions if they do their job and tell the truth?
    Mr. Hovakimian. Senator, I'm a proud civil servant. I've 
worked alongside career public servants for the majority of my 
career now. I consider myself to be among them. If I'm 
confirmed for this job, I will engage with them daily. I will 
tell them that I'm the leader of the office, but that doesn't 
mean that I'm not their peer. I am their peer. They can come to 
me and talk to me.
    And I'd expect and anticipate that if confirmed, I'd have 
an open and collaborative relationship with the professionals 
in OGC, and that we would work through the tough issues 
together. And they would have my full support.
    Vice Chairman Warner. Mr. Miller.
    Mr. Miller. Vice Chairman Warner, a really important 
question. The thing that I'm drawn to with the counterterrorism 
enterprise is it is literally apolitical, nonpartisan. We used 
to have a statement, as many of us recall, that politics ended 
at the water's edge. It's the same way with counterterrorism. A 
dedicated, mission-focused group of professionals. I will 
absolutely lead with integrity and--as I have throughout my 
career--and be very conscious of that and set the example in 
every way I can.
    Vice Chairman Warner. Thank you both.
    Mr. Hovakimian, I've got a couple more questions for you, 
and again, we talked a little bit about this in our meeting.
    In your answers to the Committee's prehearing questions, 
you noted that you were not familiar with the specific 
intelligence underlying the January 2017 ICA assessment of the 
Committee's assessment that Russia interfered in the 2016 
Presidential election to then help candidate Trump.
    You're Chief of Staff to the Deputy Attorney General, which 
would seem to me that you would have had some access to that 
information, particularly since it appears that there are some 
within the Attorney General's office that are trying to 
undermine the conclusions of this Committee and of the ICA.
    Do you have any doubts that Russia interfered in 2016, and 
continues to interfere or attempt to interfere in our 2020 
elections?
    Mr. Hovakimian. Senator, I do not. As Director Ratcliffe 
said during his confirmation hearings, it's clear that the 
Russians interfered in 2016. It's clear they interfered in 
2018. And it's clear they are, or are attempting to, this year. 
Some of the things they did were extensive social media 
disinformation campaigns, some forms of hacking, and other 
efforts aimed at sowing general discord and undermining our 
democracy. So I think it's clear.
    Vice Chairman Warner. Do you have any questions about the 
unanimous consent assessment of the Intelligence Community and 
of this Committee's report that in 2016, they had a favorite 
candidate?
    Mr. Hovakimian. Senator, as I noted in the response to the 
prehearing questions, I haven't had a chance to look at that 
intelligence. I don't know what it says. I don't know what's 
there and what isn't there. But what I can say is sitting here 
today, I have no reason to doubt the ICA of January 2017, nor 
this Committee's confirmation of it.
    Vice Chairman Warner. I think that is a careful answer. And 
I know you're applying to be a lawyer, but I am concerned about 
that. Let me get one last question, and I think my colleagues 
will press you on that.
    One of the things that I found maybe most outrageous was 
when the Inspector General, Mr. Atkinson's, efforts were 
undermined by the OLC's opinion that basically said that the 
ODNI has the ability to stop the ICIG from reporting a 
whistleblower matter of urgent concern to Congress, which I 
believe is clearly opposite to the plain letter intent of the 
law.
    Have you had a chance to review any of those activities, 
and would you see going forward that if an Inspector General 
was pursuing a matter in your role as GC for the ODNI, would 
you try to impede or stop any Inspector General effort?
    Mr. Hovakimian. Senator, I have great respect for all acts 
of Congress, and among those chiefly is the enactment 
governmentwide of whistleblower protection acts, and including 
the one that applies to the IC. If confirmed, Senator, I will 
ensure that whistleblowers receive all protections under the 
law to which they are entitled. I will work closely with the 
Director and with other senior officials.
    I don't know the new ICIG, Mr. Monheim, but I know him by 
reputation. He's a dedicated, decades-long public servant, and 
if confirmed, I look forward to working with him, his office, 
and all lawyers at OGC to ensure that whistleblowers are 
afforded all the legal protections that they are entitled to.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Chairman Rubio. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Miller, as you know from our conversations on the 
phone, I have a very special interest in the NCTC because it 
was created by the Intelligence Reform and Terrorism Protection 
Act of 2004, which I drafted with Senator Lieberman. And we 
always considered NCTC, as well as the creation of the DNI, as 
to the chief components of that wide-ranging bill.
    I am, therefore, concerned about Russ Travers' recent 
comments in which he outlined his concerns that NCTC does not 
have the resources that are required to fulfill its mandate 
under IRTPA. He has communicated similar concerns to my staff 
and to this Committee.
    I've also noted in recent years that it seems that agencies 
are no longer sending their very experienced analysts to the 
National Counterterrorism Center. And so in some ways, we've 
gone back to the pre-NCTC days when President Bush first set up 
TTIC to try to do this kind of interagency analysis to ensure 
that we connect the dots.
    Do you believe that the NCTC has sufficient resources to 
fulfill its legal mandate?
    Mr. Miller. Senator, first off, thank you for your 
visionary leadership with Senator Lieberman in establishing the 
National Counterterrorism Center, which responded to the 
failures we had, of course, prior to September 11, 2001.
    Russ Travers is a dear friend and a mentor. And 
fundamentally, I actually very much agree with the broad 
outlines of Russ' public statements. I've not, of course, seen 
anything. I understand he might have done an Inspector General 
complaint, or however you termed that.
    We don't want to return to pre-2001 stovepipes. We want to 
make sure we are resourced correctly. You know, the other thing 
is the degree between centralization and decentralization. And 
that's a really important question that we have to get right. 
And, of course, Russ' last thing is like let's have a public 
discussion about that, which we're having here today.
    I don't want to speak for Russ Travers. I need to go in 
there and look. I know that the general budget lines and 
analytical capacity, it's something that is important. And I 
know that there is stress on pulling analysts out of 
counterterrorism and moving them to other accounts that are of 
higher priority.
    I haven't seen that at the macro level yet, ma'am. As I 
said, I kind of look at the gross numbers. It's a huge concern. 
We can't return back to the problems we had in the past. But I 
just don't have a level of detail, and I look forward to 
talking to Russ Travers again as soon as I can to get more 
specificity of that. And, of course, I'll talk to all of the--
talk to a bunch of them--all the former directors, to get their 
views, too.
    Senator Collins. Thank you. I think that's really 
important. We intended for the dots to be connected after 
reading the 9/11 Commission's report, which suggested that the 
20-some intelligence agencies each had some information that 
perhaps, had it been pooled, might have led us to be able to 
thwart the 9/11 attack. And as we shift toward a focus more on 
China and Russia, we cannot forget that the terrorist threat is 
still very real. So I appreciate your commitment.
    Mr. Hovakimian, I didn't do as well as the Chairman on 
that.
    Mr. Hovakimian. That's very close, Senator, thank you.
    Senator Collins. Last year, the DNI received a 
whistleblower complaint that the Intelligence Community 
Inspector General decided was credible and of an urgent 
concern. Despite a legal requirement to transmit the complaint 
to this Committee within seven days, the ODNI did not do so.
    Under what circumstances do you believe that it's 
appropriate to not send a whistleblower complaint to Congress 
that the ICIG decides is credible and an urgent concern?
    Mr. Hovakimian. Senator, generally speaking, all 
whistleblower complaints should be forwarded to Congress. If 
confirmed--I've said it in other contexts and I'll say it 
again--I will do everything I can to ensure that whistleblowers 
are afforded all the statutory rights to which they are 
entitled. And I will do everything I can to work with the 
career professionals, both in the Inspector General's office 
and the General Counsel's office, to ensure that the 
Whistleblower Protection Act is applied fairly and 
consistently.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Rubio. Thank you.
    Senator Feinstein. Senator Feinstein, you're next.
    Senator Feinstein. Thanks very much, Mr. Chairman. You're 
very young, and back in 2014 this Committee----
    Chairman Rubio. Which one?
    Senator Feinstein. Not you, Sir.
    [Laughter.]
    Sorry, I couldn't resist that.
    Back in 2014, this Committee put out a study, a report on 
the CIA's detention and interrogation program. That was very 
important to me. I was Chairman of the Committee at the time.
    Do you believe that any of the CIA's former enhanced 
interrogation techniques are consistent with the Detainee 
Treatment Act?
    Mr. Hovakimian. I've reviewed the executive summary of the 
report that was released while you were Chairman. It is a very 
detailed and thorough report, and really from my perspective 
and where I sit, a model of Congressional oversight.
    Senator, the law today is clear. The National Defense 
Authorization Act of 2016 says that only interrogation 
techniques that are authorized in the Army Field Manual are 
legal, and only those techniques. I support that law fully. And 
if confirmed, I will ensure that that law is complied with.
    Senator Feinstein. Good, you've done your homework. Let me 
ask you about the Detainee Treatment Act, which is the set of 
conditions and techniques that really can be used. Have you 
read that?
    Mr. Hovakimian. I've reviewed it, Senator, yes.
    Senator Feinstein. Because that's the standard that is 
used, is my understanding. And so as chief legal counsel for 
the most important intelligence office, I'm really very 
interested in what your position on torture would be. You're 
very young.
    Mr. Hovakimian. Senator, torture is wrong. And if 
confirmed, I will enforce the law. I will ensure that the law 
is complied with. I've read the executive summary of the report 
that your Committee put together when you were Chairman. I 
found it to be illuminating and terrifying at the same time, 
Senator.
    Senator Feinstein. Good. Thank you. Let me ask, if 
confirmed as General Counsel in the ODNI, how would you 
approach questions about using Title 50 intelligence 
authorities domestically as part of law enforcement operations?
    Mr. Hovakimian. Senator, a bedrock principle of our country 
is that Americans who are engaging in activities that are 
entirely protected by the First Amendment or other parts of the 
Constitution ought not to be targeted or surveilled solely on 
the basis of that protected activity.
    So, although in Executive Order 12333, there's a section 
that allows for certain coordination, technical assistance, 
things like that, between IC elements and domestic law 
enforcement. In a word, that kind of stuff happening here, not 
to be too colloquial about it, is very serious.
    And to answer your question directly, I would review it 
soberly. I would look at activities like that with a skeptical 
eye, and I would work with the career professionals at OGC and 
across the Intelligence Community to ensure that the law and of 
course, of paramount concern, the Constitution is complied with 
in all contexts.
    Senator Feinstein. Are you aware of the President's firings 
of recent Inspector Generals, to include Inspector General 
Michael Atkinson?
    Mr. Hovakimian. I am aware of that, Senator, yes.
    Senator Feinstein. Well, do you see any issues in that 
firing that would undermine the IC's confidence in 
whistleblower protections?
    Mr. Hovakimian. Senator, I'm familiar with Mr. Atkinson 
being fired. I don't know all the facts there. What I do know 
is that there is a dedicated and committed core of civil 
servants who work both in the IC and across the United States 
Government. I'm proud and honored to be among them. And, you 
know, my experience has been: nothing shakes these folks. They 
just do their job on behalf of the United States, day in and 
day out. And I anticipate that if confirmed, I will have their 
back and help them do just that.
    Senator Feinstein. I'm sorry, I missed that. You will have 
the back of whom?
    Mr. Hovakimian. I will have their back. I will support them 
in their mission on behalf of the United States.
    Senator Feinstein. Well, do you see any issues with the 
recent firing of ICIG Michael Atkinson that would undermine the 
IC's confidence in whistleblower protections?
    Mr. Hovakimian. Senator, whistleblower protections are of 
paramount importance. It's important that the rights of all 
whistleblowers are protected. I was a prosecutor. I worked with 
confidential informants. They are like whistleblowers in many 
ways. They put everything on the line.
    Sometimes they work at a company and they have a job and a 
career and a family, and they put everything on the line to 
come forward and tell what they believe to be the truth, and to 
disclose what they see as wrongdoing. It is important to 
protect whistleblower rights. And I know the dedicated servants 
of the IC and across [inaudible] work to do just that. And if 
confirmed, I look forward to helping them do that.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hovakimian. Thank you, Senator.
    Chairman Rubio. Senator Cornyn.
    Senator Cornyn. Mr. Hovakimian, I'm surprised nobody's 
asked you about what I consider to be one of the greatest 
scandals that's affected the Intelligence Community, including 
the FBI, in American history, where the resources of the FBI 
and the Intelligence Community were directed against a 
candidate for President of the United States. And obviously, 
produced a long and lengthy narrative about Russian collusion--
ultimately resulted in the appointment of special counsel and a 
report from Mr. Mueller.
    And now, we're learning, as a result of declassifications 
of a lot of previously classified materials, about the nature 
of the fraud being committed on the FISA court, and securing 
FISA warrants. Abuse of the FBI's authorities to conduct 
counterintelligence investigations, which are very, very 
important. And frankly, reckless disregard at the highest 
levels of the FBI during the previous Administration for the 
rules and procedures governing fair and impartial 
investigations of----
    I wonder, if you would, if you could characterize your 
reaction to the revelations that we've seen, recognizing, of 
course, there are some ongoing investigations by Mr. Durham, 
and we are anticipating his report. But it strikes me that this 
is one of the greatest scandals in American history.
    Mr. Hovakimian. Senator, all I can say is that I was 
shocked, as were many Americans, when I read Inspector General 
Horowitz's report on the FISA situation. As a lawyer and as a 
public servant, the idea that just, for example, an Office of 
General Counsel lawyer would alter an email, and then that 
altered email would serve as the basis, even partly, for an 
affiant in a FISA application, it's deeply, deeply troubling. 
The Attorney General has called it an abuse.
    Senator, I will say over the course of my career as a 
prosecutor and now as an employee of main Justice, I've had the 
pleasure and honor of working with any number of FBI agents and 
law enforcement personnel. They, too, seek to do the right 
thing, by and large, on a daily basis. They help protect this 
country. I'm honored to work with them.
    I know Director Wray and FBI leadership are implementing 
reforms and changes to address the situation that Mr. Horowitz 
described in his report. It's an ongoing and important 
conversation, and thank you for the question.
    Senator Cornyn. Senator Feinstein raised the issue of 
enhanced interrogation and the investigation that was made. 
Unfortunately, the report ended up being a minority report and 
a majority report on partisan lines. And indeed, there was not 
a fulsome investigation in terms of talking--actually 
interviewing witnesses, as opposed to reviewing paper and 
reports.
    But clearly, this was a novel legal challenge for the 
Department of Defense and for the Intelligence Community. The 
CIA and other aspects of the Intelligence Community had to 
adapt to a novel situation, and try to get actionable 
intelligence to save American lives and hopefully preempt 
future terrorist attacks.
    Could you just describe for us how you as the chief lawyer 
for the Director of National Intelligence would approach these 
sort of novel legal questions? Because we know exactly what 
happens. Once the officials responsible for protecting the 
American people act, consistent with the legal advice provided 
at the time, there is invariably a second-guessing and an 
attempt then to hang those very people out to dry when they 
have tried to do the very best they can in a novel circumstance 
to understand what the law is and follow the law.
    Can you address how you would approach those sort of novel 
legal questions?
    Mr. Hovakimian. Yeah. Senator, as I said in my opening, I 
want to do this job because I believe in the mission of the IC. 
I believe in the mission of those who are deployed overseas who 
are fighting on behalf of this country every day--some in 
unheralded, if not completely anonymous, ways.
    Senator, if confirmed, I would talk to, consult, and work 
with personnel in the Intelligence Community, and people who've 
sort of been there, done that, and seen it. Because I believe 
that legal advice is informed and is best delivered when it 
takes into account facts on the ground, in addition to 
principles of law that are inviolable and can't be violated. 
There are facts that can help guide analysis in situations.
    So, you know, I try to be a lawyer at all turns, who 
operates on a fully informed basis, and talking to all those 
who have skin in the game, so to speak, and to those who have 
at times their back up against a wall. I do believe facts 
inform legal judgments. If confirmed, I will work every day to 
ensure that I give the best legal advice I can.
    Chairman Rubio. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Hovakimian, my hometown of Portland has been invaded by 
militarized Federal law enforcement. These Federal forces are 
beating, tear-gassing, and detaining my neighbors. On Monday, 
Donald Trump promised to expand this invasion to other cities. 
If the line is not drawn in the sand right now, America may be 
staring down the barrel of martial law in the middle of a 
Presidential election.
    Now, Mr. Hovakimian, you're a senior Justice Department 
official. You're in a position to know what's going on. And as 
you know, I informed you in advance that I would be asking 
questions this morning about the legality of what is happening 
in my hometown.
    So my first question is, do you believe that Federal forces 
can patrol American cities over the objections of state and 
local officials and away from Federal buildings?
    Mr. Hovakimian. Senator, I understand Portland is your 
hometown, and I understand there's a lot going on there right 
now. So I do extend my best wishes to your friends and family 
and constituents there.
    Senator, I will stand firm on the idea that Americans' 
right to free speech, to free assembly under the First 
Amendment, are absolutely sacrosanct. Neither law enforcement 
nor the Intelligence Community should target or surveil 
Americans who are engaged in activity that's entirely protected 
by the First Amendment. This is a bedrock principle of our 
democracy. It's one that I stand by.
    Senator, peaceful protest is one thing, and violence is 
another. And from where I sit, you know, law enforcement 
helping to quell violence----
    Senator Wyden. My time is short.
    Mr. Hovakimian. Yes, Senator.
    Senator Wyden. Nobody condones violence, and I have 
repeatedly said that. That's not the issue. The issue is 
whether that's a smoke screen for a Federal takeover of local 
authority and local law enforcement.
    So what is your reaction to what is going on in my 
hometown? Because I believe it is unconstitutional, and I 
believe the country needs government lawyers who aren't going 
to use the law as a smoke screen to justify this 
unconstitutional invasion over the objections of local 
officials.
    Mr. Hovakimian. Senator, as I began my remarks, I noted 
that the situation in Portland is volatile, and I do extend my, 
you know, my best wishes to your constituents there. I have to 
say----
    Senator Wyden. My constituents are interested in more than 
your best wishes. What they want to know is that these forces 
can't go wherever they want over the objections of local 
authorities. That's what they want.
    Mr. Hovakimian. Senator, the Department is committed to 
enforcing the law, while respecting and promoting the 
Constitutional rights of all people. On this issue 
specifically----
    Senator Wyden. I will tell you, the Department is throwing 
the law in the trash can. This morning, a Republican, the first 
secretary of the Department, said there is no way, no way he 
would have allowed, as a governor, the Federal Government to do 
what is going on in my city.
    And you seem to want to extend best wishes to us and the 
like, and you're for the First Amendment. But I don't see any 
evidence that you're going to do anything different. And I'd 
like to hear that you're going to.
    So let me ask you one other question. Do you believe that 
unidentified Federal forces in unmarked cars can drive around 
seizing and detaining American citizens? That's a yes or no 
question.
    Mr. Hovakimian. Senator, I believe in fully protecting the 
Constitutional rights of American citizens. And I've done that 
as a prosecutor. I've done that as a DOJ official. And----
    Senator Wyden. That's not what I'm asking. What I'm asking 
is, do you believe that unidentified Federal forces in unmarked 
cars can drive around seizing, detaining--seizing and detaining 
American citizens? That's a yes or no.
    Mr. Hovakimian. Senator, generally----
    Vice Chairman Warner. Can you lean in a little bit more.
    Mr. Hovakimian. Yes, Vice Chairman. My apologies.
    Generally speaking, Senator, it's a great idea to identify 
oneself as a Federal law enforcement officer. I will say that 
the Department takes the Constitutional rights of Americans 
very seriously. As you know, the state AG in Oregon has sued 
the Federal Government. And, as is common, the Federal Programs 
Branch of the Civil Division of the Department is defending the 
lawsuit. The marshals are named defendant in the lawsuit. So at 
this point, there is ongoing litigation and some of the matters 
you're asking about cut to the heart of that litigation.
    Senator Wyden. That that, again, is ducking the question. 
These are practices that are going on now over the objection of 
local officials, and you have equivocated.
    I consider these practices a massive invasion of the 
Constitutional rights of my constituents. I think that these 
practices are essentially fascist practices that, until 
recently, would have been unthinkable in America. And your 
refusal to condemn what is going on in my hometown--and people 
know all about it. The first Secretary of Homeland Security was 
very clear about it this morning. These positions are not 
consistent with the position to which you've been nominated.
    Mr. Chairman, I intend to oppose his nomination.
    Chairman Rubio. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Mr. Hovakimian, in your current capacity at the Justice 
Department, I have a few questions that I'd like you to take 
for the record. You don't have to answer them today. They're 
fairly detailed, but I would appreciate a quick response.
    The U.S. Attorney for New Mexico told me yesterday that 
Federal law enforcement agents will be sent to Albuquerque as 
part of the expansion of Operation Legend. The Justice 
Department states on its website that this initiative is 
intended to, quote, fight this sudden surge of violent crime. 
But as Albuquerque Police Chief Geier has pointed out, 
homicides are down this year, and protests in our city have 
been mostly peaceful. The DOJ initiative is also intended to 
work in conjunction with state and local law enforcement 
officials, and yet the mayor and the chief of police were not 
consulted.
    I'd like to ask you: why now? What is the driving reason to 
send these agents to Albuquerque at this time? How is this 
initiative different than last year's Operation Relentless 
Pursuit? How will DOJ work with city officials such as the 
chief of police and the mayor to ensure cooperation, 
coordination, and some legal guardrails? Because we don't want 
the Portland model coming to the city of Albuquerque, frankly. 
And finally, what will this operation actually look like on the 
ground? If it's not intended to monitor protests, how exactly 
will these forces be utilized?
    Now, I'd like to get to some questions that I would 
appreciate your answers to today. On June 26th, the President 
issued an executive order on protecting American monuments, 
memorials, and statues and combating recent criminal violence. 
According to two public reports this week, an unclassified 
Department of Homeland Security memo, which we have--which I 
have requested--authorizes DHS Office of Intelligence and 
Analysis to engage in intelligence gathering against ordinary 
American citizens who may be participating in local protests.
    I'd like to ask you if you believe that the threat to 
property damage to monuments and statues specifically is a 
significant enough homeland security threat, not a local law 
enforcement threat, but homeland security threat, to warrant 
intelligence analysis and collection by Federal agents.
    Mr. Hovakimian. Senator, with respect, I can't necessarily 
speak to what the Department of Homeland Security is or isn't 
doing. I can say that American's right to free speech and free 
expression, including free speech and free expression around 
statues and monuments, is of paramount importance to me. Those 
are bedrock principles.
    Senator Heinrich. In your personal judgment, do you believe 
that the threat of vandalism to particular monuments or statues 
rises to the level of necessitating intelligence analysis, 
especially given the fact that that comes at an opportunity 
cost if we're gathering information on protesters at monument 
sites, we're not gathering information about white supremacy 
groups or other groups that have actually--that have threatened 
violence.
    Mr. Hovakimian. Senator, I understand the question. My goal 
always as a lawyer, both in my current job and if confirmed in 
my future job, would be to provide considered legal judgments. 
And to do that, I need all the facts on the ground. You know, 
it's difficult to opine categorically on hypotheticals, 
because----
    Senator Heinrich. It seems to me, though, you answered 
pretty straightforwardly Senator Feinstein's question about 
Title 50 authorities. And this is the next logical step. This 
is the Title 50 authorities in action, right? So why is it hard 
to connect the dots for you between those two things?
    Mr. Hovakimian. Senator, there' a lot happening in the 
country right now. And there's a lot of facts on the ground in 
different cities. And your question was specifically about 
vandalism near monuments and statues.
    Senator Heinrich. My question is specifically about 
gathering intelligence about protesters.
    Mr. Hovakimian. Senator, generally speaking, intelligence 
should not be gathered against Americans who are engaged in 
activity entirely protected by the First Amendment.
    Senator Heinrich. Thank you, Mr. Chairman.
    Chairman Rubio. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman. I've got questions, 
but I'm going to reserve them for a closed session. They're not 
matters to be taken out in public.
    Chairman Rubio. Okay. Thank you.
    Senator Harris.
    Senator Harris. Thank you, Mr. Chairman.
    In your current role at the Department of Justice, have you 
reviewed, approved, or supervised the deployment of Federal law 
enforcement officers to these protests?
    Mr. Hovakimian. The deployment of Federal law enforcement 
officers----
    Senator Harris. Well, let's not parse words. Were you in 
any way involved in the decision to send Federal officers to 
these locations?
    Mr. Hovakimian. Senator, I'm a current DOJ official. 
There's a lot happening right now and----
    Senator Harris. Please, if you can do a yes or no answer, 
that would be helpful.
    Mr. Hovakimian. Senator, I advise the Attorney General and 
the Deputy Attorney General on any number of topics.
    Senator Harris. Have you advised on this topic? Let's focus 
on the subject that I've raised.
    Mr. Hovakimian. Yes, Senator. I have sightlines into a 
great many of the things DOJ does. This does not happen to be 
one of them. It's, you know----
    Senator Harris. So you were not involved in any of these 
decisions. Is that what you're saying?
    Mr. Hovakimian. Well, like any major big organization, 
there's a division of labor at the Department.
    Senator Harris. I'm aware of that, Sir. But it's a very 
specific question I'm asking you.
    Were you involved in any way in the decision to deploy 
Federal law enforcement officers to the various cities we've 
been discussing during the protests?
    Mr. Hovakimian. Senator, my understanding is that DOJ's 
involvement has been relatively limited vis-a-vis that of DHS.
    Senator Harris. Can you answer the question: were you 
involved or not?
    Mr. Hovakimian. Senator, there are ongoing law enforcement 
operations around the country, and you know, to protect the----
    Senator Harris. So you're not going to answer this question 
directly, Sir? I can move on if you're not going to. Or you can 
answer the question.
    Mr. Hovakimian. I'm attempting to answer the question, 
Senator.
    Senator Harris. Were you involved?
    Mr. Hovakimian. Senator, I advise the Attorney General and 
the Deputy Attorney General on everything under the sun. And I 
always bring to the table respect for Constitutional rights and 
the First Amendment. That is something I turn to frequently 
when advising them.
    Senator Harris. Were you involved in the decision to remove 
peaceful protesters that were gathered in front of the White 
House? The incident in Lafayette Square.
    Mr. Hovakimian. In early June?
    Senator Harris. Yes.
    Mr. Hovakimian. Senator, I don't know anything about who 
made that decision or when it was done.
    Senator Harris. So you were not involved?
    Mr. Hovakimian. Well, I just don't know who made the 
decision and what happened.
    Senator Harris. Were you involved in that decision?
    Mr. Hovakimian. Senator, I think I had a question for the 
record prehearing on that topic and I answered, no, I was not.
    Senator Harris. And press reports indicate in June that DOJ 
granted the DEA extensive new authority to conduct covert 
surveillance. I think that's what my colleague was speaking 
about earlier. Were you involved in the decision to grant these 
new authorities to DEA?
    Mr. Hovakimian. Senator, I'm not entirely sure. I know I 
got some questions for the record on that, prehearing also.
    Senator Harris. You're not sure if you were involved?
    Mr. Hovakimian. No, no, I'm not sure exactly what it is 
that you're referring to. DEA is a Federal law enforcement 
agency. And under the United States Code, there are delegations 
that are available to be made. I'm just giving you my----
    Senator Harris. Were you involved in that decision?
    Mr. Hovakimian. I'm just giving you my understanding of the 
law. Again, I have sightlines into a great number of things DOJ 
does. This, generally speaking, is not one of them.
    Senator Harris. In your role at DOJ, were you involved in 
any manner in the decision to fire Geoffrey Berman?
    Mr. Hovakimian. No. Geoff Berman----
    Senator Harris. You were not?
    Mr. Hovakimian. Geoff Berman was the U.S. Attorney up in 
New York. I knew Geoff Berman. I had worked with him on a 
number of things. The Department has made statements on that 
and those will speak for themselves.
    Senator Harris. The previous ODNI General Counsel consulted 
with the Department of Justice regarding a whistleblower 
complaint that had been filed with the Intelligence Community's 
Inspector General.
    In your capacity at DOJ, did you have any awareness of this 
whistleblower complaint? And the question of whether it should 
be shared with Congress?
    Mr. Hovakimian. Senator, you're referring to the 
whistleblower complaint from the late summer and early fall of 
last year that resulted in all of the proceedings. Is that 
right?
    Senator Harris. Right. Were you involved in that decision 
in any way?
    Mr. Hovakimian. Senator, that was something that occurred, 
and the Nation watched it. You know----
    Senator Harris. Sir, were you involved in that decision in 
any way?
    Mr. Hovakimian. In what decision precisely, Senator?
    Senator Harris. The decision to not share the whistleblower 
complaint with Congress.
    Mr. Hovakimian. Senator, my understanding was that the 
whistleblower complaint was shared with Congress at some point.
    Senator Harris. At some point, but there was also at some 
point a decision not to share it with Congress.
    Mr. Hovakimian. Oh.
    Senator Harris. And my question to you, Sir, is, were you 
involved in that decision?
    Mr. Hovakimian. Well, I guess my point in bringing that up, 
Senator, is that I'm not exactly sure which decision you're 
referring to because I don't know who made it, if it was even 
made. I don't know that there was a decision made not to share 
it with Congress because it was, in fact, shared with Congress.
    Senator Harris. And do you have any information, or were 
you involved in any way in any of the decisions that were made 
around the Department of Justice's decision in the Michael 
Flynn case or the Stone case?
    Mr. Hovakimian. Senator, the matter involving General Flynn 
is in active litigation. It's before the D.C. Circuit en banc.
    Senator Harris. So were you involved in that decision in 
any way?
    Mr. Hovakimian. Well, Senator, as a lawyer and an official 
at DOJ, it's very difficult for me to comment on an ongoing 
matter.
    Senator Harris. What about the Stone case?
    Mr. Hovakimian. Senator, Roger Stone--that matter was 
litigated over the course of years. The Department took 
positions in court filings.
    Senator Harris. Were you involved in that decision?
    Mr. Hovakimian. The Attorney General has made public 
statements about that case, and I will allow those to speak for 
themselves.
    Senator Harris. Thank you, Mr. Chairman. My time is up.
    Chairman Rubio. Thank you.
    Since I deferred my questions to the end, I have three.
    Let me start with Mr. Miller. You know, the NCTC has an 
arrangement in which the major--a lot of its workload is taken 
up by detailees from other agencies, in an era in which 
increasingly our foreign policy and therefore our intelligence 
work and frankly, multiple areas of U.S. policy, including 
geopolitics, trade, commerce, diplomacy, are increasingly 
focused on China and Russia and Iran and North Korea.
    And the concern, of course, is that even as we focus on 
these things, and rightfully so, that it could somehow detract 
from the role of--or the importance of--counterterror, which 
remains an active threat and in many ways has metastasized and 
moved into different theaters.
    What is your view of this arrangement in which the NCTC 
relies--the counterterrorism mandate relies heavily on 
detailees from other agencies whose increased workload in these 
other four areas, you know, great power competition, the like, 
could potentially place a strain on our ability to focus on the 
counterterror mission?
    Mr. Miller. Thank you, Acting Chairman Rubio. Great 
question. I really think the model works when resources are 
bountiful, and everyone is committed to the mission. I think 
it's something that the beauty of that model was you were 
constantly rotating in new folks with new views, and you kept a 
degree of energy and individual thinking going.
    My gut instinct right now is we need to relook at that 
because I'm concerned, as you note, that as resources get 
further constrained or other priorities take the fore, that we 
really need to think if that's the right model because I've 
done this one before where you're trying to get borrowed labor 
and wow, it works great. But then, until it doesn't. And I 
think we might be kind of getting to that point, Sir.
    Chairman Rubio. And just to be clear, it's not the aspect 
of having new people come into the role. It is the question of 
numbers and workload. If an agency is being told, we need more 
product, we need more work, we need more focus on North Korea, 
they may not be able to part with detailees is at the same 
scale than in the past. The bigger concern is the numbers, not 
necessarily the fact that it's new people rotating in.
    Mr. Miller. Yes, Senator. I also think the National 
Counterterrorism Center is doing some cutting-edge work on 
using artificial intelligence and machine learning. I think 
we're kind of baby steps right now. We're a long way as a 
government, writ large, to exploiting those. But I'm really 
hopeful that they continue to be best in class at that and 
figure out whether there are efficiencies that can be gained, 
because that's the goal in this. But right now, I completely 
hear what you're saying, and I'm going to look at that really 
closely, if confirmed. And am concerned as well.
    Chairman Rubio. We're in this unprecedented situation where 
certain Foreign Intelligence Surveillance Act, FISA 
authorities, expired in March, and it's leading the 
Intelligence Community and the Department of Justice without 
FISA business records, lone wolf roving surveillance 
authorities. This question really is for both of you.
    What concerns do you have with the current expired status 
of these authorities?
    Mr. Miller. Thank you, Acting Chairman Rubio, for another 
kind of really important question.
    I'm not an expert on 702 and FISA. I will say this from an 
operations standpoint better. I think this is--one of the 
things we learned from the horrendous attacks in 2001 is, 
typically speaking, it's better to have tools and not need them 
than need and not have after the fact. Once again, I'm not an 
expert on FISA. I understand the broad outlines, and more tools 
are better, generally speaking, as long as they comport with 
the Constitution, with our laws and with, you know, AG 
guidelines.
    Chairman Rubio. Yeah. And more specifically, my question is 
not so much about the legal arguments surrounding it or the 
political arguments, but whether it's an impediment to our 
counterterrorism, the current status, if it carries forward, 
whether that's an impediment to the counterterror mission. Your 
answer is obviously the more tools, the better. But how 
critical are those tools, or have they been historically, in 
your view?
    Mr. Miller. Senator, I know the National Security Agency 
has some thoughts on that and, of course, support the 
operational elements. However, once again, I can't speak 
specifically right now to what the impacts are on our 
intelligence take in regard to counterterrorism. But certainly, 
more is better. And I'll look at that if confirmed, Sir.
    Chairman Rubio. Mr. Hovakimian, do you have any insights?
    Mr. Hovakimian. Senator, yes. The provisions of FISA that 
expired on March 15th of 2020 have been very important and 
useful to law enforcement and to the national security 
community. And as Mr. Miller said, it's always better to have 
more tools and not necessarily need to use them.
    One of those provisions, in fact, I think DIC has said has 
never been used in history, but that doesn't mean there aren't 
a set of circumstances under which it would be useful. So if 
confirmed, I look forward to collaborating with this Committee 
and with the legislative affairs professionals across the 
government to reauthorize those provisions.
    Chairman Rubio. All right. We're going to follow up if any 
Members have any questions. I know the Vice Chairman has one.
    Vice Chairman Warner. Yes. Mr. Hovakimian, I'm pretty 
disappointed about how you answered a number of my colleagues' 
questions or failed to answer. But the one that really bothered 
me the most, because we talked about it----
    Mr. Hovakimian. Yes, Sir.
    Vice Chairman Warner [continuing]. Before Senator Harris 
came in, was we had a discussion during my questions about the 
OLC's opinion that ruled, I think, totally and appropriately, 
that the OLC could, in a sense, intervene--stop the IG from 
making a report to Congress. We talked about that. You said you 
thought it was very important that Congress gets the IG's 
report and that you left me with the impression that you 
thought that was inappropriate. And yet you wouldn't even 
respond to Senator Harris, whether you were involved in that 
matter at all and acted like you didn't know what she was 
talking about.
    Mr. Hovakimian. Yes, Senator, I think--sorry for any 
misunderstanding. I think what I was referring to was when the 
decision was made not to send the report over. That didn't 
compute for me because, of course, the complaint did eventually 
make its way over.
    Vice Chairman Warner. The complaint got over, but not 
through appropriate channels, and was stopped. And the 
Inspector General stopped from continuing the investigation 
that he was rightfully required to do by law. And so if you're 
not willing to answer her, will you answer me?
    Were you involved in that in any way?
    Mr. Hovakimian. Senator, I was not. That decision was made 
by the Office of Legal Counsel. It was a considered----
    Vice Chairman Warner. In your effort of having sight lines 
into all different things the Attorney General is involved in, 
were you involved in that through your various sight lines?
    Mr. Hovakimian. Senator, I'm not quite sure what you mean. 
I was at----
    Vice Chairman Warner. Sir, if you don't understand what I 
mean, then I'm not sure you're dealing with me or dealing with 
this Committee in an appropriate straight manner. I really 
enjoyed our conversation earlier. I think you are a bright 
young man, to quote my colleague. But I would like to get a 
written response from you on this subject.
    Mr. Hovakimian. Yes, Senator. I'm committed to ensuring the 
rights under the statute of all whistleblowers. I believe in 
it. I believe that whistleblowers serve an important role in 
the government. I believe Congress spoke to that. And, you 
know, I've worked with confidential informants as a prosecutor, 
and they are, in many ways, like whistleblowers. I respect 
whistleblowers and their statutory rights. And if confirmed, I 
will do my very best to respect those rights as I always have 
in every position, including my positions at DOJ.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Chairman Rubio. I want to give you an opportunity because 
there was confusion, it appears, on your part about the 
question, so let me just try to ask it a different way.
    I think the question at its core that I believe they're 
asking is obviously, as you have sight lines, you work in an 
office, you understand that different things are going on in 
different places. If I understand the question, and that may be 
what you want to respond to in writing, but as I understand the 
question is when the decision, whatever decision was made by 
the Office of Legal Counsel or the like, were you involved in 
that deliberative processing and giving legal advice as to what 
the outcome should be?
    Mr. Hovakimian. No. No, Senator.
    Vice Chairman Warner. Can I amend?
    Chairman Rubio. Yes.
    Vice Chairman Warner. Mr. Chairman, I think that is right, 
and this is why you may want to take this for the record: my 
understanding was that you had OLC, I believe in some 
consultation with the Attorney General, reaching that 
conclusion, which then was referred to the IC, in a sense--the 
IG, I'm sorry--the IG Inspector General was then stopped from 
performing his duties, which at least some of us thought was in 
clear contradiction of the law. And I do recall the gentleman 
who had your position before, him coming in and trying to 
defend that because the ODNI GC tried to defend that, I thought 
unsuccessfully.
    So the clarity here is not whether you are simply--
obviously, OLC is not inside the DOJ's Office. But you have 
left me with the impression that you are avoiding answering 
directly Senator Harris' question. And if you were involved, 
particularly after I tried to pose questions on this matter 
about whistleblowers, you've left me with a very, very 
unsettled sense. So, whether you want to address it today or in 
writing----
    Chairman Rubio. It's a question, and I want to give you a 
chance to answer. You don't have to answer here. Maybe it would 
be better off in writing because the answer is complex.
    But as I understand, the question is, to the extent the 
Department of Justice was involved in this matter and in 
reaching some conclusion and determination, was that a process 
that you were involved in helping reach that determination?
    Mr. Hovakimian. Senator, I'd be happy to take the question 
for the record and do the best I can, parsing it out and 
answering it. I will say that there's an OLC opinion that is 
public. Its reasoning is out there. I am not an attorney who 
works in the Office of Legal Counsel. I did not inject myself 
into their deliberations. I did not try to, you know, steer 
things one way or another. And I did not try to give legal 
advice on what that opinion should look like. But I will be 
happy to take the question for the record and to answer it the 
best I can.
    Vice Chairman Warner. And again, if you could just address 
both whether you were involved in or aware of these 
deliberations at DOJ in terms of consulting with the OLC.
    Thank you, Mr. Chairman.
    Chairman Rubio. Anybody else? Senator Burr, did you have a 
follow-up?
    Senator Burr. [Inaudible.]
    Chairman Rubio. Oh, okay.
    Well, I want to thank you, everyone, for being here today.
    For planning purposes, if any Members wish to submit 
questions for the record, which sounds like we're going to have 
some after today's hearing for either of the nominees, please 
do so by the close of business tomorrow. I think we know at 
least one of those questions.
    Again, I want to thank everybody for being here. And with 
that, this meeting is adjourned.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]

                         Supplemental Material

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
  
                                  [all]
</pre></body></html>
